NO.

In The
UNITED STATES SUPREME COURT

CERTIFICATE OF SERVICE

I Christopher R Granton hereby certify under penalty of perjury that
on February 1, 2021,1 caused to be delivered by first class mail, postage prepaid,
copies of the following “Petition for Writ of Certiorari” to:

Kristy Weeks
Legal Department
Washington State Lottery
814 4th Ave. E
Olympia Wa. 98506

Respectfully submitted, this 1st day of February. 2021.
Christopher R Granton Pro Se
576130th Avej4tf^#N-7
Lacey Wa. 98503

RECEIVED
Feb 11 2021

NO.

In The
UNITED STATES SUPREME COURT

CERTIFICATE OF SERVICE

I Christopher R Granton hereby certify under penalty of perjury that
on February 1, 2021,1 caused to be delivered by first class mail, postage prepaid,
copies of the following “Petition For Writ of Certiorari” to:

Jay Inslee
Governor
State of Washington
Office of the Governor
P.O. Box 40002
Olympia Wa, 98504-0002

Respectfully submitted, this 1st day of February. 2021.
Christopher R Granton Pro Se

57(^130^ Ave. £kET#N-7
Lacey Wa. 98503

NO.

In The
UNITED STATES SUPREME COURT

CERTIFICATE OF SERVICE

I Christopher R Granton hereby certify under penalty of perjury that
on February 1, 2021,1 caused to be delivered by first class mail, postage prepaid,
copies of the following “Petition For Writ of Certiorari” to:

Bob Ferguson
Attorney General
State of Washington
Office of the Attorney General
1125 Washington St. SE
Olympia wa, 98501

Respectfully submitted, this 1st day of February. 2021.
Christopher R Granton Pro Se

5'/f)130th Avc. S.K. #N-7
Lacey Wa. 98503

NO.

In The
UNITED STATES SUPREME COURT

CERTIFICATE OF SERVICE

I Christopher R Granton hereby certify under penalty of perjury that
on February 1, 2021,1 caused to be delivered by first class mail, postage prepaid,
copies of the following “Petition For Writ of Certiorari” to:

Elizabeth Prelogar
Solicitor General
Of The United States
Office of the Solicitor General
Room 5616, Department of Justice
950 Pennsylvania Ave. N.W.
Washington D.C. 20530-0001

Respectfully submitted, this 1st day of February. 2021.
Christopher R Granton Pro Se
5701 30^ Ave. cCeT#N-7
Lacey Wa. 98503

